<html>
<title> - A REVIEW OF ISSUES ASSOCIATED WITH PROTECTING AND IMPROVING OUR NATION'S AVIATION SATELLITE-BASED GLOBAL POSITIONING SYSTEM INFRASTRUCTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   A REVIEW OF ISSUES ASSOCIATED WITH
                 PROTECTING AND IMPROVING OUR NATION'S
                    AVIATION SATELLITE-BASED GLOBAL
                   POSITIONING SYSTEM INFRASTRUCTURE
=======================================================================

                                (112-71)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 8, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                              __________

                    U.S. GOVERNMENT PRINTING OFFICE
72-812 PDF               WASHINGTON : 2012

------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbacbba48ba8beb8bfa3aea7bbe5a8a4a6e5">[email&#160;protected]</a>  








             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
FRANK C. GUINTA, New Hampshire       EDDIE BERNICE JOHNSON, Texas
RANDY HULTGREN, Illinois             LEONARD L. BOSWELL, Iowa
CHIP CRAVAACK, Minnesota, Vice       TIM HOLDEN, Pennsylvania
    Chair                            MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ELEANOR HOLMES NORTON, District of 
STEVE SOUTHERLAND II, Florida            Columbia
JAMES LANKFORD, Oklahoma             NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida (Ex Officio)     (Ex Officio)
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Hon. John D. Porcari, Deputy Secretary, U.S. Department of 
  Transportation.................................................     3
Vincent Galotti, Deputy Director, Air Navigation Bureau, 
  International Civil Aviation Organization (ICAO) of the United 
  Nations........................................................     3

                               Panel Two

Captain Sean P. Cassidy, First Vice President, Air Line Pilots 
  Association, International.....................................    15
Thomas L. Hendricks, Senior Vice President of Safety, Security 
  and Operations, Airlines for America...........................    15
Craig Fuller, President, Aircraft Owners and Pilots Association..    15
John M. Foley, Director, Aviation GNSS Technology, Garmin 
  International, Inc.............................................    15
Scott Pace, Ph.D., Director, Space Policy Institute, Elliott 
  School of International Affairs, The George Washington 
  University.....................................................    15

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Jerry F. Costello, of Illinois..............................    28

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. John D. Porcari.............................................    30
Vincent Galotti..................................................    36
Captain Sean P. Cassidy..........................................    43
Thomas L. Hendricks..............................................    56
Craig Fuller.....................................................    59
John M. Foley....................................................    64
Scott Pace, Ph.D.................................................    79

                       SUBMISSIONS FOR THE RECORD

John M. Foley, Director, Aviation GNSS Technology, Garmin 
  International, Inc., responses to questions from Hon. Eddie 
  Bernice Johnson, a Representative in Congress from the State of 
  Texas..........................................................    75

                        ADDITIONS TO THE RECORD

Jeffrey Carlisle, Executive Vice President, Regulatory Affairs 
  and Public Policy, LightSquared, letter to Hon. Thomas E. 
  Petri, Chairman, Subcommittee on Aviation, February 8, 2011 
  [sic], including response to hearing briefing memorandum and 
  request to Federal Communications Commission for initiation of 
  proceeding.....................................................    94
David R. Hinson, Administrator, U.S. Department of 
  Transportation, Federal Aviation Administration, letter to Dr. 
  Assad Kotaite, President of the Council, International Civil 
  Aviation Organization, October 14, 1994........................   122
Marion C. Blakey, Administrator, U.S. Department of 
  Transportation, Federal Aviation Administration, letter to Mr. 
  Roberto Kobeh, President of the Council, International Civil 
  Aviation Organization, September 10, 2007......................   124
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




                   A REVIEW OF ISSUES ASSOCIATED WITH



                 PROTECTING AND IMPROVING OUR NATION'S



                    AVIATION SATELLITE-BASED GLOBAL



                   POSITIONING SYSTEM INFRASTRUCTURE

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2012

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:00 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order. We meet 
today to discuss a critical part of transportation 
infrastructure, the Global Positioning System, commonly 
referred to as GPS.
    So, I thank the witnesses for their participation in 
today's hearing, and would like to say a special welcome to 
Deputy Secretary, Mr. Porcari, and Mr. Galotti, our witnesses 
from the United Nations International Civil Aviation 
Organization, a very important framework for our global 
aviation industry. Your participation in today's hearing speaks 
to the importance of this issue, not only here, but around the 
globe.
    For this committee, for this subcommittee, aviation safety 
is the top priority. According to the Department of 
Transportation, the Global Positioning System has served as a 
critical component of aviation safety improvements that the 
aviation community has embraced. Moreover, GPS is critical to 
the safety and efficiency improvements planned as part of 
NextGen, that we are in the process of rolling out here in this 
country and other countries as well.
    Our aviation infrastructure and efforts to update it with 
the Department of Transportation's NextGen program are a 
platform for growth in the U.S. economy. NextGen is also a 
catalyst for job creation within the aviation industry.
    It is important for Government to avoid constraining that 
growth by limiting the efficiency gains and job creation 
achieved by NextGen, which is reliant on GPS. As important as 
GPS is to transportation safety and efficiency, its signal 
strength is very weak. Therefore, GPS is susceptible to 
interference by other transmissions, even if those other 
transmissions are constrained within their own spectrum 
allocation.
    Over the past year or so, the subcommittee has watched with 
interest the developments of issues related to radio spectrum 
within the L band. As the Federal Communications Commission 
deliberates the issues before it, we recognize the potential 
impacts on the transportation community, and hence, today's 
hearing.
    However, out of fairness to the parties involved in the FCC 
proceedings, I would ask the witnesses to focus their comments 
today on the question at hand regarding the importance of GPS 
as an element of transportation infrastructure, and the public 
policy considerations of the transportation community to 
protect that infrastructure.
    Today's hearings serve as an opportunity to hear ideas for 
the best way forward, given what we have learned about GPS. 
Where there are good engineers, there may be a variety of 
solutions. And it would be helpful for technologies to co-exist 
because, given the spectrum demand, the problem of interference 
between competing uses on various points along the spectrum is 
not going away.
    So, I would encourage the agencies and industry to find a 
way to safely co-exist, if possible. I believe that we can and 
must find a way for us to continue to encourage innovation in 
both the broadband and GPS industries.
    Finally, before I recognize Mr. Costello for his opening 
statement, and other Members, I would ask unanimous consent 
that all Members have 5 legislative days to revise and extend 
their remarks and include extraneous material for the record of 
this hearing.
    [No response.]
    Mr. Petri. Without objection, so ordered. And now I will 
recognize Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. And I want to thank 
you for calling the hearing today. I will submit my statement 
for the record.
    I welcome our witnesses and look forward to hearing their 
testimony. And with that, Mr. Chairman, I yield back.
    Mr. Petri. Mr. Cravaack, did you----
    Mr. Cravaack. Thank you, Mr. Chairman. I would like to 
thank Chairman Petri and Ranking Member Costello for holding 
these important hearings on the critical importance of GPS to 
our Nation's transportation infrastructure.
    I would like to welcome today's witnesses, and I look 
forward to hearing your testimony on the importance of the 
issue regarding the future of GPS. GPS is the cornerstone, as 
you well know, of aviation system that is in our country, and 
any threat to GPS needs to be handled with the utmost care, and 
ensure that our skies are safe.
    One of my key concerns has been the LightSquared project, 
and how it affects GPS devices. I am very concerned that the 
reliability of GPS might be put at risk. I will be interested 
to hear any opinions or any solutions to the situation, because 
we need to solve all concerns before they become a problem and 
put lives at risk.
    I look forward to hearing from the witnesses, their 
thoughts on the GPS and its role in our aviation system. Thank 
you again, and I look forward to hearing from your testimony.
    And I yield back.
    Mr. Petri. Thank you. Now we turn to our first panel, which 
consists of the Honorable John Porcari, deputy secretary of the 
United States Department of Transportation, and Mr. Vincent 
Galotti, who is the deputy director, air navigation bureau, 
International Civil Aviation Organization, or ICAO, of the 
United Nations.
    Gentlemen, thank you very much for coming. Thank you for 
your prepared statements. And we would invite you to summarize 
them, if possible, in about 5 minutes, and then we will have 
some questions, I suspect.
    Thank you very much, and we will begin with Mr. Porcari.

   TESTIMONY OF HON. JOHN D. PORCARI, DEPUTY SECRETARY, U.S. 
   DEPARTMENT OF TRANSPORTATION; AND VINCENT GALOTTI, DEPUTY 
 DIRECTOR, AIR NAVIGATION BUREAU, INTERNATIONAL CIVIL AVIATION 
           ORGANIZATION (ICAO) OF THE UNITED NATIONS

    Mr. Porcari. Thank you, Chairman Petri and Ranking Member 
Costello. Thanks to the members of the subcommittee. I 
appreciate the opportunity to appear before you today.
    The simple fact is the Global Positioning System (GPS) 
applications are vital to transportation safety and efficiency. 
Tens of millions of drivers across America use GPS to navigate 
every day. In the Department of Transportation's Federal 
Aviation Administration, we estimate that by 2013, 60,000 
aircraft will be equipped with GPS to navigate the skies over 
America. This is what we refer to collectively as NextGen.
    On the ground, Positive Train Control, which is an improved 
safety application for rail transportation, relies on GPS, as 
well. The Intelligent Transportation Systems will depend on GPS 
as a key technology for vehicle collision warning and crash 
avoidance systems.
    What's more, GPS is essential for the operations of first 
responders, search and rescue, resource management, weather 
tracking and prediction, earthquake monitoring, and other 
critical national security functions. From there, the list goes 
on and on.
    Now, as you know, the LightSquared Corporation has proposed 
to create a wireless broadband network. In the Obama 
administration, we believe deeply in what LightSquared is 
attempting to do, which is to make the Internet more accessible 
to more people all across the country. This is an urgent 
national priority. But after comprehensive testing, we have 
concluded that the current plan to provide such services 
adversely affect GPS signals. And I will be happy to delve into 
the details during our conversation, as I have in my written 
testimony.
    In short, both LightSquared's original and revised plans 
generate considerable harmful interference with GPS. Our 
researchers could find no obvious practical mitigations to 
solve the interference issues.
    I would also point out that substantial Federal resources, 
including over $2 million from the FAA, has been diverted from 
other programs in testing and analyzing LightSquared's 
proposals.
    Even if these interference issues were somehow resolved, 
LightSquared would still have to design fixes for known 
interference with high-precision GPS receivers that are vital 
for agriculture, science, and surveying. And LightSquared's 
operating plan still leaves open the possibility of 
broadcasting on both bands. Its FCC filings propose only a 
``standstill'' on broadband use of the upper 10 MHz band.
    Considering all these factors, the Executive Committee 
(EXCOM) of the National Space-Based Positioning, Navigation, 
and Timing group have now unanimously concluded that 
LightSquared's proposal is fundamentally incompatible with GPS 
use, and that no additional testing or analysis is warranted at 
this time.
    Going forward, the EXCOM agencies continue to strongly 
support President Obama's directive to make available a total 
of over 500 MHz of spectrum over the next 10 years suitable for 
broadband use.
    We recognize that we all have to do our part in spectrum 
use, making it as efficient as possible. We propose to work 
with the National Telecommunications and Information 
Administration in the Department of Commerce to draft new GPS 
spectrum interference standards.
    These standards, which would inform future potential 
commercial operators, would let them know in advance which uses 
in adjacent bands would or would not be compatible with GPS, 
and will ensure that this national policy protection for GPS 
evolves through clear communications with stakeholders, and 
that it is implemented without affecting existing and emerging 
uses of space-based positioning, navigation, and timing 
services that are vital to economic, public safety, scientific, 
and national security needs.
    In summary, our GPS system is one of the more vital, if 
less visible, parts of our national infrastructure. With that, 
I will be happy to answer any questions. And again, thank you 
for permitting me to testify.
    Mr. Petri. Thank you.
    Mr. Galotti?
    Mr. Galotti. Thank you, and good morning, Mr. Chairman, 
Ranking Member, and subcommittee members. It is an honor to be 
able to testify before this subcommittee, and I would like to 
thank you for the opportunity. My testimony today will focus on 
the importance of what we call the global navigation satellite 
systems to international civil aviation.
    And there are a few other global systems. Russia has its 
GLONASS, which has had some reliability and maintenance 
problems over the years, although that government is now 
committed to a Next General system. There is the European 
Galileo, not yet operational, and of course China is in the 
process of launching its Compass system.
    Because of the reliability and continued upgrading of the 
GPS and the commitment of the United States Government, GPS has 
evolved into the most fundamental and important piece of 
supporting infrastructure for the global aviation system.
    And just at the beginning I would like to mention that the 
United States is one of the primary contributors to ICAO in 
terms of technical expertise and knowledge, and in support of 
consensus-building and excellence in international standards 
and policy development, for which we are grateful. Most of the 
technical work that we do is accomplished by groups of experts 
nominated by the member States. The FAA has been the major 
contributor to ICAO in this respect, and I believe it has 
served the U.S. interests extremely well.
    ICAO's close involvement with satellite navigation systems 
goes back to the work of the ICAO Committee on Future Air 
Navigation Systems, more commonly known as the FANS Committee. 
The U.S. was a major contributor and participant of that 
committee. In adopting the outcomes of the FANS Committee at 
the 10th Air Navigation Conference in 1991, a conclusion was 
reached that the exploitation of satellite technology appears 
to be the only valuable solution to overcoming the shortcomings 
of the present system, and also fulfill the global needs and 
requirements of the foreseeable future, and that satellite-
based systems will be the key to worldwide improvements.
    In recognition of this turning point and acknowledgment by 
the world community of the importance of GNSS, which was highly 
dependent--and is--on the U.S. GPS, President Clinton formally 
offered the GPS standard positioning service, SPS, to the 
global aviation community through ICAO to support international 
civil aviation. This commitment was reaffirmed in 2007 under 
President Bush, as follows: ``The U.S. Government maintains its 
commitment to provide GPS SPS signals on a continuous worldwide 
basis, free of direct user fees, enabling worldwide civil 
space-based navigation services, and to provide open, free 
access to information necessary to develop and build equipment 
to use these services.''
    Even before the work of the FANS Committee and the offers 
of both Presidents Clinton and Bush, the availability of GPS to 
civil aviation first came about, as I am sure you are aware of, 
when President Reagan authorized its use for international 
civil aviation after the shootdown of Korean 007.
    Following the initial U.S. offer, ICAO developed 
international standards to satellite navigation systems. With 
the availability of the GPS system, it became globally 
recognized by the international civil aviation community as the 
central element of GNSS. ICAO and the entire international 
civil aviation community are now completely reliant on the 
longstanding U.S. Government policy and its commitment as a key 
enabler to international aviation.
    And I just want to go over a few of the important ways that 
GPS supports international aviation. There are many areas in 
the world where the conventional terrestrial navigation and 
infrastructure is inadequate. And GNSS is often the only 
reliable source of navigation information.
    Before GNSS, navigation in high-seas airspace was crude and 
inaccurate. Separate distance between aircraft used by air 
traffic control were as much as 100 miles laterally and 15 to 
20 minutes. The superior accuracy of GNSS, especially when 
integrated with sophisticated flight management systems, has 
enabled a number of substantial navigation improvements, which 
are the foundation of the concept of performance-based 
navigation, or PBN.
    In PBN, airspace separation between aircraft is 
significantly reduced, thereby increasing capacity while 
bringing safety, efficiency, and environmental benefits. The 
United States provides air traffic control services over vast 
expanses of high-seas airspace.
    In the North Atlantic there are over 2,000 crossings a day. 
The transpacific passenger traffic is expected to grow by 4.2 
percent between 2009 and 2030. Intra-Asia-Pacific traffic 
during that period is expected to grow by 5.1 percent. And 
right now there are approximately 8,000 flights per year that 
operate on cross-polar routes, and they are totally reliant on 
GPS.
    Until very recently, all final approaches to land at major 
airports were accomplished by means of instrument landing 
systems. This is OK in States that are able to maintain these, 
and that have the infrastructure to support that. In many parts 
of the world, maintaining such systems is prohibitive because 
of the cost and expertise. Using PBN approach procedures based 
on GPS, more and more approaches to land are accomplished by 
means of the equipment in the aircraft only, with little or no 
reliance on ground equipment, bringing enormous safety 
benefits. And airports that previously had no instrument 
approaches now have PBN.
    Today, when U.S. airlines fly into Lagos, Nigeria; Almaty, 
Kazakhstan; Ulan Bator, Mongolia; Dakar, Senegal; Quito, 
Ecuador; and Georgetown, Guyana, to name but a few out of 
hundreds, they are more assured of safe operations because of 
GPS.
    GNSS is important for Next Generation aircraft 
surveillance, and I am sure you are all aware of automatic 
dependent surveillance broadcast. But over oceanic airspace, 
automatic dependent surveillance contracts allows air traffic 
control to have surveillance, where this was impossible.
    And finally, two of the most significant near-term air 
traffic management improvements that have recently become 
available are continuous descent operations and continuous 
climb operations. This is a major initiative at ICAO, and GPS 
allows this extremely efficient flight routing to be enabled.
    And now, just a few words about the spectrum major issue 
that has as much to do with the importance of GPS as anything 
else. I am referring to the problem of frequency spectrum.
    Available radio frequency spectrum is the lifeblood of 
aviation, and the protection of spectrum used by aviation radio 
systems is absolutely essential for safety. ICAO has been 
vehemently supporting the protection of GNSS spectrum for 
decades, in all international fora, especially the world radio 
conferences--and there is one going on in Geneva right now.
    Against that background I would urge you to consider that 
any decision by the United States that affects frequency 
spectrum, which impacts on GNSS, will have a critical impact on 
the safety record, the investments made in GNSS, the 
international standards, and the recertification of equipment.
    In summary, Mr. Chairman, I would like to appeal to you and 
the committee that ICAO and international civil aviation 
continue to benefit from U.S. leadership and cooperation in 
many ways, including invaluable support through the sharing of 
technical information and expertise, support of consensus-
building and excellence in international standard and policy 
development, and concrete projects to assist countries in need 
of strengthening their aviation programs.
    GPS is among the most important ways that the U.S. provides 
technological, humanitarian, and political leadership. ICAO 
looks forward to deepening this relationship and working 
together.
    Thank you for this opportunity to share ICAO's views with 
this important subcommittee.
    Mr. Petri. Thank you. Thank you both. At previous hearings 
this subcommittee has been informed that as we gain momentum in 
deploying the NextGen technology, it will have enormous return 
on the American Government's investment in it, reduce fuel use 
for the industry by some 20 or 30 percent, expand the capacity 
of the system without having to build additional runways and so 
on, improve the safety of the system, shorten the time of 
flights, and it goes on and on and on. To reduce the sound 
footprint, as planes are able to glide down more for many of 
the airports where that has been a problem. A lot of benefits 
from this new--for using this technology in the aviation 
industry, as other industries have found.
    I do have a couple of questions. First, Mr. Porcari, you 
mentioned that you proposed the Department of Transportation 
work with the National Telecommunications and Information 
Administration to draft new GPS spectrum interference standards 
to strengthen existing national policy protection of adjacent 
band spectrum. Could you elaborate on what that all means?
    Mr. Porcari. I would be happy to, Mr. Chairman. One thing 
that recent events has shown us is that GPS is not only a 
national infrastructure asset, but that protecting that asset, 
we are going to have to be much more sophisticated in the 
future on how we do that.
    In layman's terms, on both sides of the existing GPS 
frequency there were mobile satellite-type applications that 
were also quiet, as it were, that did not interfere with GPS's 
ability to hear what is a very weak signal from space, 
basically 50 watts, 22,000 miles up.
    The spectrum interference standards--and we would take a 
whole-of-government approach to this, working through our 
Positioning, Navigation, and Timing Executive Committee--the 
idea would be to identify before anyone puts capital at risk or 
major project at risk, what are compatible uses to GPS.
    In general terms, the more precise the GPS receiver--for 
example, the avionics in an aircraft--the more precise they 
are, the more that they are likely to have a wideband receiver 
that, in fact, needs to be able to listen beyond the GPS 
frequency. Acknowledging that, and building a policy around 
that, would be, we think, a very good use of staff time and, 
from a policy perspective, critical to protecting GPS as an 
asset.
    Mr. Petri. Proposing to set interference standards--how is 
the proposal to set interference standards different from 
setting receiver standards?
    Mr. Porcari. There are currently no receiver standards. The 
idea of spectrum interference standards would be to give 
everyone involved, the industry and others, confidence in the 
long term that, as they build more and more precise GPS 
devices--and I know our focus is on aviation, where GPS is 
absolutely critical to operations today, but will be even more 
so in the future--but other applications: precision farming, 
construction, and others. Spectrum interference standards would 
be clear guidelines for all users, both within the GPS spectrum 
and adjacent spectrums.
    We think, if we can build the kind of consistency and 
predictability for both the GPS users and adjacent spectrum 
users, that that will serve everyone's interests well.
    Mr. Petri. Yes, I understand there is some sort of a 
curfunkle about the adjacent--who is interfering on whose turf 
in this particular area, and that, in fact, it was allowed for 
a little broader use of spectrum, because it didn't interfere 
with adjacent use. And then, when the type of use was changed 
somewhat at the staff level, that has created a problem. Is 
that what you are trying to avoid?
    Mr. Porcari. Yes, Mr. Chairman. That is exactly it. GPS, by 
its very nature, is a very weak space-based signal that is very 
faint when it is received by GPS receivers in the atmosphere, 
or in terrestrial applications.
    I think of it in zoning terms, because that is probably the 
way to think about compatibility of uses. GPS was--the spectrum 
was originally put in a quiet neighborhood, because it needed a 
quiet neighborhood with quiet neighbors to be able to have 
accuracy in receivers. The adjacent pieces of spectrum were for 
mobile satellite service, which was another quiet use.
    What has happened with this specific proposal is 
essentially you went from a mobile satellite service proposal 
with limited ground augmentation to a ground-based service with 
limited satellite augmentation. And that really changed the 
fundamental nature of signals, and how they would be received. 
But it is, I think, really important to point out that GPS was 
put in a quiet piece of the spectrum on purpose because, 
fundamentally, it has to have quiet neighbors.
    Mr. Petri. So this was well known at the technical level at 
the time this strategy was put in place?
    Mr. Porcari. Yes, I believe that the physics and the 
technical parts of it have been well-known all along.
    I would also point out that, as Mr. Galotti had, from an 
international perspective, harmonizing that use of the 
frequency internationally was important as well, so that the 
same kind of safety of flight avionics that we are using today, 
and as we build a larger NextGen system of systems, can be used 
around the world.
    Mr. Petri. Mr. Galotti, in your testimony you referred to 
the GPS spectrum use being under some threat, and it being 
discussed at past world radio conferences and I think some 
current or upcoming conferences as well. Could you elaborate on 
that, and what role you, as representing the global aviation 
industry, play in those conferences, and how you have been able 
to work out resolutions in the past?
    Mr. Galotti. The international telecommunication holds a 
world radio conference every 3 years. And it is a huge event, 
it lasts for 4 weeks. The States go with very powerful 
representation. And also industry goes with incredible force. 
Telecommunication providers are--as you can imagine, have the 
most to gain, and they put a lot of pressure, and they work 
around the clock, virtually, on--getting emails from my people 
at 2:00 and 3:00 in the morning.
    ICAO is an observer. But during the 3 years in between we 
meet with all of our member States and we develop--we prepare 
an ICAO position that at least the member States agree to, so 
we get just about unanimous decision on the ICAO position for 
radio frequency spectrum. It doesn't always pan out that way at 
the event itself because, again, there is a lot of lobbying, 
there is a lot of pressure, a lot of jobs at stake. But as 
observers there, we do have a lot of close contacts with the 
States and with friends in the aviation industry. And we have 
been very successful in working with the member States. And the 
United States has been a strong supporter of protecting the GPS 
spectrum from other uses. Thank you.
    Mr. Petri. Thank you. Mr. Costello?
    Mr. Costello. Mr. Chairman, thank you. To Deputy Secretary 
Porcari, to follow up on the chairman's question, he asked the 
same question that, actually, I was going to ask. But I would 
like to have you clarify a point.
    My understanding is that you are proposing that DOT work 
with other agencies to develop a policy. Does that mean for 
radio transmission standards in the spectrum? Is the 
interference now between the agencies--are we talking about 
transmission standards? Or what are we talking about?
    Mr. Porcari. What we are really talking about is, more 
generically and more broadly, spectrum interference standards, 
where we could establish, by consensus and with input from 
everyone who has an equity in this, industry, interested 
observers and others, the kind of standards that would protect 
the GPS spectrum, both today and in the future.
    If you look at the evolution of GPS, just in the last 10 or 
15 years, for example, the GPS uses, especially in aviation, 
have gotten more and more precise, and they are now safety of 
flight issues, which requires spectrum interference protection.
    Mr. Costello. We are talking primarily about transmission 
standards.
    Mr. Porcari. We are talking about primarily the requirement 
for precise navigation devices that use GPS to be able to 
utilize as broad a band as possible, which they have been to 
date, and which was acknowledged in the original approval of 
mobile satellite services on either end of that spectrum.
    So, I say this because, in fairness to all the potential 
users outside of the GPS band, establishing those standards 
would give them a good sense of what kind of uses would be 
compatible, and which would not.
    Mr. Costello. You also mention in your testimony that the 
Obama administration--that their goal is to free up federally 
owned spectrum and make it available for mobile broadband, 
especially providing access to underserved rural communities. I 
certainly support that goal, and I think many members of the 
committee would, as well, especially for underserved 
communities for wireless service, and where consumers would 
benefit from competition between service providers.
    Let me ask. If the mobile satellite service band is not 
compatible with the high-speed wireless transmissions, then 
what can the administration do to provide greater access to 
high-speed service?
    Mr. Porcari. The administration, the Department of 
Transportation and every part of the administration, is again 
committed to identifying those 500 MHz of additional spectrum 
over the next 10 years.
    We strongly support what you have underlined, which is the 
need for rural broadband and broadband competition. There are 
some features of the recent proposal that are very valuable, 
from that perspective. But we think that working across the 
Government with our Positioning, Navigation, and Timing 
Executive Committee, with NTIA, will ultimately be helpful.
    Obviously, we would not presume to know what actions the 
Federal Communications Commission, an independent agency, would 
take.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. Gentlemen, thank you 
for your testimony.
    Mr. Porcari, are there immunity standards for military GPS 
receivers that protect them from transmissions from outside the 
GPS band?
    Mr. Porcari. Congressman, my understanding--and I believe 
General Shelton testified before the House Armed Services 
Committee--is that there are not. And I do know that, at least 
in some cases, the Department of Defense aircraft are using 
commercial, off-the-shelf avionics that are FAA-certified for 
commercial use, as opposed to military.
    Mr. Coble. Thank you, sir. Well, let me ask you another 
question, Mr. Porcari. What standards are currently in place to 
make sure that the receivers and equipment purchased pick up 
only signals used in the GPS frequency band?
    Mr. Porcari. There are no current standards in place. That 
is part of the reason for the discussion. Again, we think, 
going forward, having the consistency and predictability of 
spectrum interference standards will help all parties involved.
    Mr. Coble. Thank you, sir. Mr. Galotti--I will put this 
question to each of you.
    What impact might protections for GPS have on the 
marketplace for radio spectrum, A? And then, B, how does this 
bear on the question as to whether or not GPS warrants 
protections?
    [No response.]
    Mr. Coble. Either of you is fine. Mr. Galotti? Want to 
start with you?
    Mr. Galotti. Thank you, Congressman. I guess there are 
various figures that exist as to the number of jobs, and the 
value of spectrum. And, as I have said earlier, there is 
tremendous pressure from the telecommunication providers who 
have significant figures on jobs.
    But on the other hand, aviation globally, I believe the 
number that is out there is worth about $3 trillion to the 
global economy a year, when you consider the economics, the 
tourism, the aviation industry itself, the business, carriage 
of goods and other things.
    So, probably a good case could be made that, economically, 
aviation is critical. But there will be more and more pressure 
from particularly the telecommunication providers. Thank you.
    Mr. Coble. Particularly from who?
    Mr. Galotti. The telecommunication providers. Sorry, sir.
    Mr. Coble. Right. I didn't hear you.
    Mr. Galotti. Thank you, sir.
    Mr. Coble. Mr. Porcari, you want to weigh in?
    Mr. Porcari. Yes, Congressman. I don't know the values of 
the spectrum in itself.
    I would point out that the national investment we have made 
in GPS, first from a military-only perspective and now from a 
combined military-civil perspective, has been enormous. It is 
one of the more precious and important pieces of national 
infrastructure we have, even if you can't see it and feel it. 
It is also a U.S. national leadership issue.
    I would point out in the aviation context, I would argue 
that one of the single best safety advances we have made in the 
last 20 years, which is the terrain avoidance warning system--
20 years ago, controlled flight into terrain, for both 
commercial and recreational aircraft, was a leading cause of 
accidents. The terrain avoidance warning systems that are GPS-
enabled have taken controlled flight into terrain from a 
leading cause of accidents into something that is way down on 
the list.
    Another example is, as of today, part of our NextGen 
system, ADSB, is operational in the Gulf of Mexico, where we 
have had no radar coverage. And we have thousands of flight 
operations a day, for example, serving offshore petroleum rigs 
via helicopter that had no radar coverage before that, are now 
served by ADSB.
    So, it is important to make sure that we understand the 
value on both sides of the equation, including the enormous 
national investment that has been made in GPS, which has gone 
far beyond military uses, has gone far beyond aviation uses, 
and for precision farming, construction, safety of our train 
systems, those are not possible today without GPS.
    Mr. Coble. Thank you, sir. Mr. Chairman, my red light is 
about to illuminate, so I will yield back.
    Mr. Petri. Thank you. Mr. Duncan?
    Mr. Duncan. Well, thank you, Mr. Chairman. And this is my 
first real involvement with this, so there is much of it that I 
don't really understand.
    But, Mr. Secretary, I have read this statement from this 
assessment. It says by the deputy secretaries of the Department 
of Transportation and the Department of Defense, and I assume 
that is from you?
    Mr. Porcari. Yes.
    Mr. Duncan. And it is a very strong statement that you put 
out about 3\1/2\ weeks ago. And you say there that--you mention 
that LightSquared had an original proposal and then they 
modified it. Can you explain to me, in layman's terms, how much 
of a change they made in their original plan?
    And it also tells us in our briefing papers that they are 
disputing your findings, or your assessment.
    Mr. Porcari. I will be happy to, Congressman.
    Mr. Duncan. OK.
    Mr. Porcari. And layman's terms is all I am capable of 
here.
    Mr. Duncan. OK.
    Mr. Porcari. So I will try to do it in that sense. The 
original LightSquared proposal of roughly a year ago, January 
of 2011, proposed up to 40,000 ground-based transmitters that 
would effectively blank out the GPS signal in large stretches 
of the U.S. and in some very critical areas. There was some 
early testing done, both by the Department of Defense and the 
FAA. It was clear from that testing that there was an 
interference issue.
    The forum for this is a relatively obscure group, the 
Positioning, Navigation, and Timing Executive Committee, which 
the Deputy Secretary of Defense and I co-chair, Deputy 
Secretary Carter representing the military users, and myself 
representing all the civil users. Through that committee, which 
includes all the executive-branch agencies, which includes 
others, including the Federal Communications Commission, as an 
observer, it was clear that additional testing of a different 
proposal was in order.
    We worked with LightSquared. They were part of developing 
the testing protocols. They were part of the testing itself. 
And the results, I think, are very clear-cut. I would point out 
that the testing results from both the NPEF work and separate 
Federal Aviation Administration work are currently with NTIA 
and will be transmitted to FCC shortly.
    But those results were independently verified by both the 
Idaho National Engineering Laboratories and then the Lincoln 
Laboratories at MIT. And from my layman's perspective, the 
result, especially with the precision safety of flight avionics 
that we use in aircraft, the results were unacceptable.
    Mr. Duncan. Well, let me ask you this. I said it was a very 
strong assessment. And what I am talking about, it says, 
``Based upon this testing and analysis, there appears to be no 
practical solutions or mitigations that will permit the 
LightSquared broadband service, as proposed, to operate in the 
next few months or years without significantly interfering with 
GPS.''
    I understand the dangers or the concerns or the problems. 
But it is a fascinating thing to me that you could say that 
there is nothing that they could even do within the next few 
years. It does tell us--and I have no connection whatsoever 
with LightSquared, I have never even talked to these people. 
But it says they dispute these findings. How do they dispute 
them, do you know? Or could you tell us something?
    Mr. Porcari. First, I believe the LightSquared 
representatives can and should better explain how they dispute 
the findings. I would point out that the statement, 
Congressman, is strong. I believe it is warranted, given the 
circumstances.
    When we talk about in the next few months or years, 
remember there is a very large installed base of GPS receivers. 
Just focusing on aviation for a moment, there is about 60,000 
GPS receivers out there that are used for safety of flight 
things like terrain avoidance warning systems. Each of those is 
about $40,000. If you look at the life cycle of aircraft and 
avionics, they serve for decades.
    And the reason for that part of the statement is to point 
out that there is no easy retrofit or filter or any other kind 
of retrofit that would, from a safety of flight perspective, 
make the proposal, as currently proposed by LightSquared, 
compatible with aviation.
    Mr. Duncan. Well, I am not saying it wasn't warranted. I 
just was saying it is a fascinating thing that there would be a 
statement that nothing could be done even in the next few 
years, when technology advances as fast as it does. So it was 
kind of an interesting thing. Thank you very much.
    Mr. Petri. Thank you. Mr. LoBiondo? You--Mr. Cravaack?
    Mr. Cravaack. Thank you, Mr. Chairman. And thank you for 
your testimony today. I can truly tell you, as a pilot, there 
was a palpable difference in the cockpit when you have terrain 
avoidance systems using GPS. When you are flying that approach 
coming in from the east going in to Salt Lake City, and you 
know you are skirting the top of those mountains, it was really 
a comforting feeling to have that GPS in the cockpit.
    But LightSquared is--has agreed to a standstill, as I 
understand it, on the use of the upper portion of the spectrum, 
and it is the portion that is actually closest to the GPS 
signal. And LightSquared has stated that it would like to work 
with the GPS community to develop ``mitigating strategies,'' as 
they put it, in order to initiate commercial operations in the 
upper spectrum within 2 and 3 years.
    Is--in your opinion--I understand in your testimony you 
said there is no mitigating conclusion here, and that--do you 
really think 2 or 3 years to be able to find some type of 
strategy is in that window?
    And two, from what we know, even though we really can't 
identify a mitigating strategy, the cost to general aviation to 
implement that strategy, as well? So----
    Mr. Porcari. Thank you, Congressman. First I would point 
out I am not sure what a standstill means on the upper 10 MHz. 
There are no time limits to that, and no technical triggers, 
that I am aware of, on that.
    There is a fundamental incompatibility between the 
LightSquared proposal, as proposed, and the continued use of 
GPS as a precision air navigation use. And again, I would point 
out that this has been built over decades now, where more and 
more we are dependent on GPS for a much higher standard of 
safety than we are able to achieve with the old instrument 
landing systems, without the terrain avoidance warning systems, 
without wide area augmentation systems. All of those are very 
significant safety advances.
    I can't speculate on the cost, because I am not sure anyone 
can quantify the cost, even if it could be done, of retrofits, 
if they were technically viable, to existing avionics uses.
    Mr. Cravaack. So, just to be clear then, there is no plans 
at this time to retrofit or reconfigure any systems to work 
LightSquared into this bracket, is that correct?
    Mr. Porcari. That is correct, Congressman. I would say, in 
contrast, mobile satellite service uses on the adjacent 
frequencies, which is what they were originally zoned for, if 
you will, have been and will be compatible.
    Mr. Cravaack. Super. Thank you very much, and I yield back.
    Mr. Petri. Thank you. Mr. Fleischmann? Mr. Ribble? Mr. 
Farenthold?
    Mr. Farenthold. Thank you very much. And I am troubled that 
a terrestrial base system like LightSquared has the potential 
for interfering with GPS. I am afraid it points out the actual 
delicate nature of the GPS system, and its potential 
vulnerability to be--for nothing else, an attack. You hear 
reports of a truck driver with a jamming device degrading the 
system near Newark Airport. Suppose someone not friendly to 
this country were to intentionally put up some high-powered 
jamming stuff. We would be in trouble.
    Historically, LORAN has been considered a backup to GPS. 
But that is currently being dismantled. I am concerned that we 
have all of this reliance on GPS from everything from my car to 
my cell phone to landing a 777 aircraft in the future. It seems 
to me that we are creating a vulnerable system with no backups. 
Can you all comment on that?
    Mr. Porcari. Yes, Congressman. First, you have brought up a 
very important point. There are--by its very nature, there are 
vulnerabilities for the GPS. You pointed out one specific 
incident where a commercially bought, over-the-Internet $99 
jammer caused real issues at one of our major airports in the 
country.
    One of the things that we have done is a national 
positioning, navigation, and timing architecture study of the 
overall system architecture. Following on that, the Federal 
Aviation Administration has committed to an alternate PNT 
research program where, just as today, with our terrestrial 
radar-based air navigation system we have vulnerabilities, and 
you basically build defense in depth with backup systems, we 
know, as we move with the implementation of NextGen, as we move 
forward with that, it will be more and more important to have 
backups to the GPS-based system.
    They will only be short-term backup systems. And it is 
important to point out that we are moving aggressively----
    Mr. Farenthold. Could you define ``short-term backup''? I 
don't----
    Mr. Porcari. Well, I mean for short duration. In other 
words, if we were denied the use of GPS systems for air 
navigation today for an extended period of time, it would have 
severe impacts on the national airspace system. If it were for 
10 minutes, it would be a little bit different.
    Mr. Farenthold. OK.
    Mr. Porcari. But----
    Mr. Farenthold. So minutes, as opposed to days.
    Mr. Porcari. Minutes, as opposed to days. But again, you 
have put your finger on a vulnerability in the system that----
    Mr. Farenthold. And it seems a vulnerability easy to 
exploit.
    Mr. Porcari. Well, it can be. Part of this is the 
architecture and design going forward of how we design the 
system of systems that is NextGen. We are very focused on this. 
Also, I would point out there is an important enforcement side. 
There is no legitimate commercial use for a GPS jammer.
    Mr. Farenthold. All right. And just for my information, I 
have seen press reports about other countries developing their 
own GPS satellite arrays. Do we know where that is going?
    Mr. Galotti. Thank you, Congressman. The Russian Federation 
had established their system in the 1990s. And when the Soviet 
Union disintegrated, it was not maintained. But I understand as 
of December of 2011, now they have a full constellation and 
they have committed to GLONASS-K, which is similar to GPS III, 
and they hope to have that in place by 2014.
    The Europeans have Galileo, which--two satellites are up. 
And I think the total constellation is, I believe, 18.
    And China is putting in place what they call Compass. They 
have 2 satellites in place, and they plan to launch 6 in 2012, 
and the full complement by 2020. And that will initially be for 
East Asia and China, parts of the----
    Mr. Farenthold. And if you will allow me just to geek out 
for a second, we have got a massive array of radio transmitters 
in the form of our cell tower network that can contain 
longitude and latitude information in the cell tower. Is any 
research going into tapping into those to create some sort of 
system as a fallback to GPS?
    Mr. Porcari. I don't know. What I would be happy to do is 
actually research that and get back to the committee.
    Mr. Farenthold. Yes, just curious. It seems like there is--
--
    Mr. Porcari. It is a good question.
    Mr. Farenthold [continuing]. An infrastructure in place. 
You might be able to develop a fallback system.
    Mr. Porcari. I appreciate the question, and I will find out 
for you.
    Mr. Farenthold. OK. And my time has expired. Thank you.
    Mr. Petri. Well, I am sure we all have a lot of other 
questions, but I will leave it there for the purpose of this 
hearing at this point. Thank you very much. It has been very, 
very informative.
    Mr. Porcari. Thank you, Mr. Chairman.
    Mr. Galotti. Thank you.
    Mr. Porcari. Thank you, Members.
    Mr. Petri. The second panel consists of Mr. Thomas L. 
Hendricks, who is senior vice president of safety, security and 
operations, Airlines for America; Captain Sean Cassidy, first 
vice president, Air Line Pilots Association, International; 
Craig Fuller, president of the Aircraft Owners and Pilots 
Association; John M. Foley, director, aviation GNSS technology, 
of Garmin International, Inc., and Dr. Scott Pace, who is the 
director of the Space Policy Institute, Elliott School of 
International Affairs, The George Washington University.
    I thank you for making--all of you--for making the time to 
be with us today on this very--somewhat technical but very 
important subject for sectors of our economy and our safety and 
competitiveness, as a country. And we will begin with Captain 
Cassidy, waiting for Mr. Hendricks.

TESTIMONY OF CAPTAIN SEAN P. CASSIDY, FIRST VICE PRESIDENT, AIR 
 LINE PILOTS ASSOCIATION, INTERNATIONAL; THOMAS L. HENDRICKS, 
   SENIOR VICE PRESIDENT OF SAFETY, SECURITY AND OPERATIONS, 
AIRLINES FOR AMERICA; CRAIG FULLER, PRESIDENT, AIRCRAFT OWNERS 
AND PILOTS ASSOCIATION; JOHN M. FOLEY, DIRECTOR, AVIATION GNSS 
TECHNOLOGY, GARMIN INTERNATIONAL, INC.; AND SCOTT PACE, PH.D., 
      DIRECTOR, SPACE POLICY INSTITUTE, ELLIOTT SCHOOL OF 
    INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON UNIVERSITY

    Captain Cassidy. Good morning, Mr. Chairman and the members 
of the subcommittee. I am Captain Sean Cassidy, first vice 
president of the Air Line Pilots Association International, and 
I represent more than 53,000 professional pilots based in the 
United States and Canada. It is an honor to appear before the 
subcommittee to underscore the tremendous contribution that the 
satellite-based navigation system makes to ensuring efficient 
and safe operations in the United States and around the globe.
    Given the vital importance of the Global Positioning System 
as a key component of this country's transportation 
infrastructure, it is appropriate, and indeed essential, for 
the House Transportation and Infrastructure Committee and this 
Aviation Subcommittee to be fully engaged in protecting that 
system.
    As the members of the subcommittee know, over more than two 
decades the invaluable navigation information available through 
GPS has enabled air transportation to make tremendous gains in 
safety and efficiency.
    Since 1983, when GPS became available to the public at no 
cost, the system has evolved to become a vital tool for 
aircraft navigation, all-weather approaches and landings, 
surveillance, maintaining required separation between aircraft, 
and pilot situational awareness.
    GPS allows pilots to fly aircraft using the safest and most 
efficient routes, which benefits every flight operation, but 
particularly those over the Atlantic and Pacific, or on 
transport on long-range routes, where diversion options are 
very limited. The enhanced accuracy of GPS also allows aircraft 
on parallel runways to operate independently, safely increasing 
arrival rates.
    In major metropolitan areas that are served by several 
airports, GPS allows us to analyze the entire airspace and 
operate flights based on a regional strategy, rather than 
airport-by-airport. These opportunities to improve flight 
operations, possible only through GPS, reduce fuel burn, 
decrease noise, and cut CO2 and other greenhouse gas emissions, 
while making our industry safer, more efficient, and better 
positioned to meet future demand.
    Let me give you one example from my own flying experience. 
The airport at Juneau, Alaska, the State capital, is situated 
on a base surrounded by high terrain. Before GPS, we pilots 
only had two choices for approaching landing at Juneau, and 
they are both very challenging. The approach from the east and 
the one from the west both required fairly high cloud ceilings 
and a tight turn at low altitude to line up for landing. 
Without GPS, the terrain and weather conditions forced many 
flight cancellations.
    In 1996, Alaska Airlines pioneered a GPS-based instrument 
approach to Juneau, Alaska. The pinpoint accuracy of the GPS 
approach allows me to fly directly over the center of the 
Gastineau Channel, as depicted in the photo up on the screen, 
and stay clear of the high terrain surrounding the channel and 
the airport. The result enhances safety and reduces delays and 
cancellations.
    Since then, the Alaska Airlines has expanded the GPS-based 
approach to other airports in the country. In 2011, the airport 
completed more than 1,500 flights that would likely have been 
canceled or diverted, and the net result was $19 million worth 
of saved revenue, and over 210,000 gallons worth of fuel that 
was not burned.
    Across the United States the FAA has published more than 
11,000 GPS approaches to thousands of airports, including our 
own backyard here at Reagan National, where highly accurate 
GPS-based approaches reduce flight delays, diversions, and 
cancellations.
    GPS signals are low power by design to allow them to be 
based on satellites. However, this low-energy environment also 
makes them susceptible to interference from other radio 
transmissions. For this reason, only low-powered satellite-
based signals have historically been permitted in the radio 
frequencies that are closest to the GPS bandwidth.
    One recent proposal to deploy 40,000 high-powered ground-
based transmitters and the radio frequency spectrum that is 
directly adjacent to GPS bandwidth raised alarm as a result of 
the risk it posed to the safety of air transportation, as well 
as to emergency services such as first responders.
    Rigorous industry and Government testing demonstrated that 
if LightSquared's proposal had been allowed to go forward, GPS 
would be inaccessible over large regions of the U.S. at normal 
operational altitudes for airliners. Were this proposal or 
anything like it to be allowed to proceed, pilots will lose a 
tremendous navigational tool that is especially important in 
mountainous terrain, remote areas, and bad weather, and that 
supports a safe and efficient air transportation system that 
helps drive the U.S. economy and secure tens of thousands of 
jobs.
    Looking to the future, GPS is critical to our efforts to 
modernize the U.S. air traffic control system through NextGen. 
ALPA is a staunch advocate for Next Gen, because of its 
enormous potential to enhance safety, increase capacity and 
efficiency, and protect the environment. As part of the NextGen 
initiative, the FAA has already invested more than $1 billion 
in GPS-based technology that is designed to replace radar-based 
surveillance of aircraft. As NextGen continues to mature, GPS 
will become more important.
    The pilots of ALPA commend the U.S. Aviation Subcommittee 
for holding this hearing, and allow us to underscore the 
unmatched benefit that GPS provides to air transportation, both 
now and in the future. Thank you very much.
    Mr. Petri. Thank you.
    Mr. Hendricks?
    Mr. Hendricks. Chairman Petri, Ranking Member Costello, and 
members of the subcommittee, thank you for inviting us to 
appear at this timely and important hearing. And I do apologize 
for my slight delay in my pushback for my testimony this 
morning. It is good to speak with you again.
    The continued integrity of the Global Positioning System is 
critically important to the millions of customers who we fly 
every day, as well as to the tens of millions of other people 
in our country who rely on it. GPS will be the backbone of air 
navigation, both domestically and internationally, in the 
coming years. Interference with this accessibility and 
reliability would be catastrophic for civil aviation and the 
communities that depend on air transportation. We deeply 
appreciate the subcommittee's recognition in the FAA 
reauthorization bill of the importance of this technology, and 
particularly your support for the continued advancement of 
NextGen.
    With respect to the LightSquared proposal, the 
incontestable fact is that it will create widespread GPS 
interference, which will have ruinous effects on aviation. 
Experts have repeatedly reached that conclusion. LightSquared's 
proposal, therefore, should be withdrawn. This matter needs to 
be put to rest, once and for all.
    To be clear, we do not oppose the expansion of wireless 
broadband services. But any expansion cannot be permitted to 
interfere with existing or anticipated aviation GPS use, many 
of which will significantly enhance safety. We are dependent on 
that technology; there is no substitute for it.
    One obvious lesson of the convoluted experience with the 
LightSquared application is the need for a governmentwide 
policy that protects the aviation GPS spectrum. Without such an 
authoritative policy, spectrum encroachment will remain a 
threat.
    As the subcommittee knows all too well, we have 
historically relied on a ground-based air navigation system. It 
is a system that has become increasingly defined by its 
limitations. Users of the system have, for the most part, had 
to fly from one ground navigation aid to the next, often 
resulting in circuitous routings. This inefficiency wastes time 
and fuel. It also restricts the number of routings that 
aircraft can use, which in turn constricts capacity growth.
    GPS is at the heart of the ongoing multibillion-dollar 
NextGen program that will shift air navigation from that 
outmoded terrestrial system to a modern satellite-based system. 
This is a transformational change. All who are involved in it--
Congress, the Federal Aviation Administration, airlines, 
general aviation, and the Department of Defense--recognize the 
need for that transformation. This massive effort will result 
in more precise navigation, safer operations, far more direct 
aircraft routings, better airspace utilization and airspace 
capacity growth. Because of these operational improvements, 
there will be substantial reductions in greenhouse gas 
emissions.
    One existing application of GPS has produced a breakthrough 
in the safety of airline operations. It has been referred to 
earlier here: the elimination of controlled flight into terrain 
accidents for large jet aircraft in the United States. Enhanced 
ground proximity warning systems aboard aircraft combine GPS 
information with onboard terrain databases to provide flight 
deck crews with look-ahead warnings of dangerous terrain. This 
has made air travel far safer than it was only recently, and 
illustrates the remarkable benefits that leveraging GPS with 
other technologies can achieve.
    The introduction in the coming decades of NextGen 
capabilities will be the real game-changer. Its integration of 
GPS with other technological innovations will create the 
satellite-based system of air traffic management that we all 
realize is necessary. GPS is the indispensable element of this 
long-needed overhaul.
    Given the essential role of GPS, the Federal Government 
must develop comprehensive safeguards for aviation's use of it. 
The stakes are too high for the passengers and shippers that 
rely on air transportation, the communities and businesses that 
depend on air service, and the airlines and their employees, to 
leave to chance our continued ability to utilize GPS to the 
greatest advantage. Consequently, we need a governmentwide 
policy that guides Federal agencies' responses when potential 
interference issues emerge. That policy must make clear that 
interference in the aviation spectrum is prohibited, and that 
other users cannot be permitted to encroach into the aviation 
spectrum.
    Domestically, the most obvious place to begin to strengthen 
governmental policy against GPS interference is the National 
Executive Committee for Space-Based Positioning, Navigation, 
and Timing, the PNT. The PNT is a Government organization 
established by Presidential directive to advise and coordinate 
Federal departments and agencies on matters concerning GPS.
    The PNT is chaired jointly by the Secretaries of Defense 
and Transportation, and includes equivalent-level officials 
from the Departments of Homeland Security, State, Interior, 
Agriculture, and Commerce. The Federal Communications 
Commission chairman participates in the PNT as a liaison. At 
the very least, the FCC should be required to consult with the 
PNT before taking action on any application to operate a 
terrestrial-based communications network that may affect the L-
band spectrum, which is the band that GPS uses.
    On the international front, U.S. Government positions 
expressed at international conferences at which spectrum issues 
are considered, such as the world radio communications 
conference that is currently being held in Geneva, must reflect 
the importance of protecting the GPS spectrum throughout the 
world.
    We appreciate the subcommittee's interest in this vital 
issue. We are prepared to assist you in any way we can. And I 
would be happy to take any questions you might have.
    Mr. Petri. Thank you.
    Mr. Fuller?
    Mr. Fuller. Good morning, Mr. Chairman, Ranking Member 
Costello. Craig Fuller, president and CEO of the Aircraft 
Owners and Pilots Association. It is always a pleasure to be 
before the committee.
    I am going to start with a statement I don't always get to 
make, and that is that we are in absolute full agreement with 
the Obama administration on the question before you today. I 
thought the statements by the deputy secretary of 
transportation were right to the point. We agree with every 
point that was made there.
    Indeed, the other members of the administration, other 
departments and agencies that have looked at this, are of the 
same view. There is only one somewhat reluctant regulator out 
there that seems not to have gotten this message. But perhaps 
today's hearing will help, although I know that is a topic 
maybe for another day.
    I have a statement I have filed for the record. It makes 
many of the points that have been made. I thought I would give 
just a couple of comments--a little different perspective.
    You know we all say GPS is extremely important. We 
certainly believe that. But in a way, GPS is pretty simple. I 
took off yesterday from Frederick, Maryland, in an aircraft. As 
soon as it was airborne--in fact, even before it was airborne--
a small box in the plane received multiple signals from GPS 
transmitters in space. All that box did initially was identify 
those signals and determine precisely where it was. That is 
GPS.
    The genius of GPS is what it enables. The fact that GPS has 
been around for a long time as a technology that can determine 
precisely where something is in space doesn't mean that this is 
somehow old and not exciting, because the excitement in GPS is 
what it enables. The fact that that box, as I traveled, kept 
determining exactly where that airplane was in space--you now 
have two points--the box calculated my air speed. The box 
calculated my heading. The box calculated that there are towers 
on hills near Frederick, Maryland, that I was within 500 feet 
of. If I had an emergency of some kind, the box would tell me 
exactly where the nearest airport was, what the route was to 
it, and how long it would take me to get there, simply because 
it could receive this very small signal from space, from the 
GPS transmitter.
    I guess I would submit that while some may say, well, it is 
time to look to new technology for greater benefits, we have 
just begun to tap this genius of GPS and what it can enable. As 
you have heard today, it is absolutely at the center of NextGen 
technology. We have 5,200 public-use airports in this country. 
We couldn't possibly afford to put instrument landing systems 
in all those airports with equipment on the ground. And yet 
every one of those airports can have a precision approach to 
every runway on the field, using GPS capabilities. That is what 
it enables. And it enables emergency helicopters to go 
precisely to the scene of a crime, to a mountain climber that 
needs to be rescued, and know exactly what the closest landing 
site is for the helicopter. All these things are enabled by 
this GPS signal.
    So, I guess, from where we sit, my 400,000 members who are 
flying general aviation airplanes see this as absolutely 
essential. By the way, you have heard from two very respected 
members of the industry who fly large airplanes. The airplane I 
was in was a two-seater Aviat Husky, and it has this same GPS 
capability that airliners have.
    I think when we talked about this issue before I said it 
is--there is nothing wrong with a Government agency looking 
forward and seeing an opportunity and letting it be explored. 
And indeed, the Food and Drug Administration does that all the 
time with miracle cures in medicines. But sometimes they don't 
work. And I think what the agencies of the Federal Government 
have said is, ``We embrace the concept that is being 
considered, but the approach simply doesn't work,'' and it puts 
at risk all that GPS enables, which is not only what we have 
experienced for the last 20 years we have been using it, but 
the promise that it holds for the future.
    So, we very much appreciate the committee's interest in 
this. We certainly embrace, as I said, the statements made by 
the administration. We strongly urge that the Federal 
Communications Commission rescind waivers that keep this cloud 
over us on this important topic until further research can be 
done.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Foley?
    Mr. Foley. I am grateful for the opportunity to participate 
in this important hearing. I am John Foley, director of 
aviation GNSS technology at Garmin. The 9,200 people at Garmin 
are devoted to designing and building GPS devices for millions 
of users worldwide, improving their lives and safety.
    The GPS industry in this country alone accounts for over 
130,000 direct jobs. What was once a government-only technology 
is now fully woven into the fabric of our infrastructure. That 
did not happen overnight. It has taken two decades of hard work 
to mature it from a fledgling technology into a reliable force 
for safety and efficiency. Yet, unbelievably, what we have 
built together is now threatened.
    Today, virtually all types of aircraft utilize GPS for 
navigation and approaches. Loss of even a fraction of GPS 
reliability would pose significant danger to aviation safety. 
Four areas are particularly worrisome: loss of GPS while on 
approach would unsafely increase pilot workload during a 
critical phase of flight; loss of GPS would deny coverage at 
hundreds of airports and heliports lacking ground-based 
navigation aids; without GPS, the terrain awareness and warning 
system, or TAWS, would not work; loss of GPS means a loss of 
situational awareness for cockpit displays of traffic and 
weather information, including on the ground, to prevent runway 
incursions. Last, but not least, reliable GPS is essential for 
the FAA's proposed NextGen system.
    We can sum up the last year in four words: grant first, 
test later. Grant first, test later seems to stand the process 
of public decisionmaking on its head. This approach placed a 
severe burden on everyone's time, attention, and resources, a 
burden that should have been placed on those seeking something 
from the FCC. Everyone concerned about GPS reliability had to 
devote 6 months last spring and millions of dollars to testing 
the effects of constantly changing proposals. The tests 
revealed extensive interference. Anyone aware of the tremendous 
difference in signal strength between GPS and a high-powered 
terrestrial network could have predicted this result.
    Yet, despite all this, another round of extensive 
Government testing occurred last fall. The PNT EXCOM again 
concluded in a recent letter to the NTIA that various plans for 
a high-powered terrestrial broadband network would cause 
harmful interference to many GPS receivers. The letter noted 
that the FAA's separate analysis similarly concluded that such 
proposals are not compatible with several GPS-dependent 
aircraft safety systems, and that no practical solutions exist 
to prevent significant interference to GPS. The EXCOM stated 
that no further testing was necessary.
    Garmin has found many developments over the last year to be 
troubling. Why did the FCC make a far-reaching decision without 
conducting its own tests or spending time to evaluate Garmin's 
first test results? Shouldn't an applicant have the burden of 
demonstrating market readiness?
    Why were objections from the Departments of Transportation 
and Defense ignored?
    We hope you are asking these same questions, too.
    Well, where do we go now? We believe that the PNT has the 
right structure, the right stakeholders, including a liaison 
role for the FCC, and on paper should be effective. However, 
future coordination must be improved. The FCC should obtain PNT 
EXCOM sign-off when proposals before it potentially interfere 
with GPS reliability, the level of reliability that our 
customers have come to expect.
    Going forward, if the PNT believes that the creation of a 
post--of something akin to a national chief GPS officer would 
help ensure that coordination, we could support that. We think 
such an officer should alternately come from the Departments of 
Defense and Transportation.
    In their recent letter to NTIA, the EXCOM said that they 
proposed to draft new GPS spectrum interference standards. In 
response, we simply note that in the last year parts of our 
Government seemed unaware that, at least for certified aviation 
GPS devices, the FAA and Department of Defense standards 
already address interference. Any analysis in the future should 
recognize and build upon that work.
    In short, Garmin and other manufacturers have had their 
businesses greatly disrupted by the failure of Government to 
effectively coordinate. It has cost us millions of dollars and 
thousands of person hours that could have been better spent 
improving GPS products. If anything, for businesses, consumers, 
and the Nation, this year has in essence been a trial run. We 
have learned a lot, but the threat is still there, and we need 
your continued vigilance to help.
    Thank you, and I look forward to answering your questions.
    Mr. Petri. Thank you.
    Dr. Pace?
    Mr. Pace. Thank you, Mr. Chairman. And thank you to this 
committee for an opportunity to discuss this topic. As you have 
heard, GPS is a global utility that is critically important to 
all modes of our Nation's transportation infrastructure.
    What I would like to do is provide a little historical or 
policy perspective, because some of these issues of threats to 
GPS are actually not new. There have been and continue to be 
many policy and legal risks for GPS, from funding constraints, 
the transition to modernized signals, international trade 
barriers, and domestic regulations. The most serious threats, 
however, are not to the GPS itself, but to the spectrum 
environment upon which it depends. If you will, the foundation 
on which all these applications reside.
    Every type of threat, from band sharing, segmentation, out 
of band emissions, noise floor increases, and reallocation of 
adjacent bands, have been attempted over the past 15 years. To 
date, all such threats have been removed or mitigated through 
government-industry cooperation and through bipartisan support 
from multiple Congresses and administrations who sought to 
protect the spectrum in which GPS operates.
    Four Presidents, two Republican, two Democratic, have 
issued policy statements regarding GPS. These statements have 
recognized the dual-use nature of GPS as more than a military 
system, crucial to a broad range of U.S. interests. Similarly, 
Congress has passed numerous bills related to the protection of 
GPS, and Federal statutes can be found under both Title 10, 
Armed Services, and Title 51, National and Commercial Space 
Programs.
    Regulatory processes for rulemaking are well-defined in the 
Administrative Procedures Act. I would say that the United 
States has sufficient law and policy on the books to protect 
GPS. What has been missing at times has been a willingness to 
enforce those laws and procedures, and follow the basics of 
good Government. Given the high stakes involved in preventing 
risk to GPS, it is attempting to look for a special policy 
fence that would automatically prevent problems from arising. 
Given the FCC is an independent regulatory commission, however, 
that does not report to the President, any special policy for 
GPS will require congressional action in a very complex area.
    Receiver standards have been mentioned as a possible way of 
allowing higher power emissions in bands adjacent to the GPS 
spectrum, or at least creating a more predictable regulatory 
environment for new entrants. I do not believe this will be a 
useful approach, and would suggest instead focusing on defining 
GPS spectrum protection criteria. It is a subtle difference, 
but an important one.
    The creation of government-driven design standards outside 
of those necessary for national security and public safety can 
stifle innovation. Receiver standards can also be a subtle 
regulatory means of sacrificing some categories of users and 
their applications in rapidly evolving markets. On the other 
hand, transparent protection for the GPS spectrum environment 
can provide better predictability for new entrants, while not 
constraining GPS applications.
    Finally, I would like to mention two areas of risk not 
related to spectrum. In today's fiscal environment, it may be 
tempting to slow or cancel the acquisition of GPS III 
satellites, or hope to rely on foreign systems to fill the 
gaps. This is a very dangerous idea, given our Nation's 
reliance on GPS and the lack of demonstrated reliability of 
foreign systems.
    A second risk area would be disruptions to existing GPS 
users as an unintended result of modernization. There is a need 
to explicitly confirm that changes to GPS are backwards 
compatible with the installed base. If not, there needs to be a 
transition plan developed with the relevant stakeholders in 
Government, industry, and even nongovernment organizations, 
such as advisory committees and scientific societies. We have a 
precious resource in that installed base that needs to be 
protected.
    Finally, the spectrum neighborhood in which GPS resides 
should be preserved, as you have heard from other witnesses. As 
GPS modernization proceeds, the U.S. Government should ensure 
that the installed base suffers no disruptions, as new GPS 
capabilities come online. And for the aviation community, it is 
not an overstatement to say that eternal vigilance is, in fact, 
the price of safety.
    I thank you for your time, and I would be happy to answer 
any questions you might have.
    Mr. Petri. We thank you, and we thank the entire panel for 
your contribution.
    Craig Fuller talked about this simple technology with 1,000 
and more, many more, permutations and advantages--I was 
thinking in my own area we have a boat manufacturer now that 
has a boat hook, it is a GPS. You push a button and the boat 
will stay perfectly still without an anchor in the ocean.
    And of course, John Deere and these people now can do--
apply fertilizers to fields based on the characteristics at 
that spot on the field, and it has a huge return for the 
additional investment--make agricultural more productive, less 
wasteful, and all the rest. And it is all GPS. And this is only 
the beginning of how we can refine the application of 
technology for changes in circumstances on practically a 6- by 
6-inch basis across our country.
    You have heard the testimony of the previous panel. And I 
really wonder if, in particular, Mr. Foley and Mr. Pace would 
care to comment on it. You have in your prepared remarks--but 
we found ourselves in a rather peculiar situation in that I--I 
am sure good-meaning people who see a business opportunity 
spent some billions of dollars to help achieve a national 
objective, which is a good one, of making broadband more 
available, high-speed broadband across our country, and yet we 
had a GPS system set up and elaborate for a number of years, 
that needed to be in a quiet area, as was testified before. And 
it was well known, evidently, the price of that spectrum 
reflected that to some extent.
    And yet, that spectrum was acquired and the previous 
purpose was broadened at the staff level at the FCC, evidently 
leading people to think they could do something. And it is 
going to ruin a lot of savings of people who have invested in 
all this technology.
    So is this a staff failure? Or are people leading someone 
down the primrose path, or--I mean how--or do we need clearer 
fences here, explain to people why this--evidently the spectrum 
price reflected some knowledge at the investor level, as to 
what was going on.
    But was it a failure of the technical advisors of these 
investors to--or do you have any--I guess it is speculation, 
but maybe looking forward, how can we avoid this waste of 
resources in the future, or rescue the situation that we find 
ourselves in?
    Either of you have any ideas?
    Mr. Foley. Well, thank you. I think the main thing--and I 
think we have all kind of highlighted on that--is that we need 
to make sure that we protect the spectrum that we have. And 
looking kind of backwards, I think, at least from my 
perspective as a GPS receiver manufacturer, there are some 
standards for interference that have been in place for quite 
some time, back to 1996, I believe. So it was a bit of a 
surprise for us to see that when this new proposed system came 
up, it was actually putting out signals far in excess of those 
receiver--or interference protection limits.
    So, any future plans would want to--we would want to build 
on those existing limits. And I think that is what the PNT has 
said, and DOT has said. So, to the extent that we do that, I 
think that is the best way to move forward.
    And, just more generally, as I stated in my testimony, 
improved coordination between the PNT and the FCC and the rest 
of Government, to make sure that all the stakeholders get 
represented when new policy decisions are made.
    Mr. Pace. I think, Mr. Chairman--I think looking back at 
it, I think the fundamental error was in not really applying 
the intent or the past practices of the Administrative 
Procedures Act, and notices of proposed rulemakings that 
involve reallocation of spectrum.
    The argument was made that this was not a reallocation from 
mobile satellite services to a high-powered broadband 
terrestrial mobile service, that this was, in fact, simply a 
relaxation of some--maybe some outdated constraints and some 
waivers could be applied, and maybe some new efficiencies could 
be found.
    I think, in retrospect, that was too clever by half, that 
it was a reallocation, that a notice of proposed rulemaking 
should have been done, the notice of proposed rulemaking would 
have generated the technical data necessary to understand what 
was involved, and that one would have fairly quickly seen that 
this was a non-starter.
    When this originally started back in about 2003, the idea 
of an ancillary terrestrial component to mobile satellite 
service was considered a kind of a fill-in, a gap-filler, a 
relatively low-power system. No one was talking about 40,000 
high-powered cell towers blanketing the country. Nobody was 
talking about having an independent terrestrial service 
separate from the satellite services. The FCC was very clear 
over the years that they would not allow a separate, standalone 
service, that, in fact, it always had to be tied to the 
satellite service, and no interference with the satellite 
service would occur.
    Terrestrial broadband systems would not interfere with 
mobile satellite services in their own band, what they call co-
channel interference, which is a really big sin.
    So, I think that the position of people at the time was to 
try to find some way to make these ancillary systems work. I 
think there was good faith technical effort. There was really 
no technical data available then. And then people gradually, 
gradually got into trying to change it into something else, a 
reallocation. And they did not do a notice of proposed 
rulemaking. And hence, I think people were surprised when they 
found out that when they actually got data, that it was a much 
different situation than what they had intended.
    So, I don't know how you prevent people from making bad 
decisions. I don't know if that is really possible. I do think 
we have rules and procedures that, if followed, would have 
protected us.
    Mr. Petri. Any other comments?
    Mr. Fuller. Mr. Chairman, I just have a quick comment. One 
of the reasons, seriously, for my enthusiasm about the clarity 
of the Obama administration statement today is that it should 
send a very clear signal to any agency, even an independent 
agency. And we really don't have to speculate. There are plenty 
of people who have issued press releases. There are plenty of 
representatives making cases. But no one has done the hard work 
of testing that has come to any other conclusion than this 
won't work.
    And so, I would hope that the administration, who had to 
clear the testimony today at OMB at the Executive Office of the 
President, I would hope the administration would provide an 
equally clear message to its appointees and an independent 
agency to say, ``If you have some special knowledge that none 
of us have been able to uncover, then bring it forward. Bring 
it to the Congress. Bring it to the industry.''
    So far, literally--we have had press releases, but we have 
had not nearly the kind of certainty that experts, technical 
experts in this field, have. And I think the process that led 
to the testimony today is sound and solid and represents the 
best clear thinking in this administration that the project 
should not go forward as proposed.
    Mr. Petri. Mr. Cravaack?
    Mr. Cravaack. Thank you, Mr. Chairman. Thank you for the 
great testimony. There is so much information that you have 
just given us, I really appreciate it.
    One of the things you have said, Mr. Fuller--I don't want 
to--I want to make sure that the committee understands it. With 
the GPS system, there needs to be no terrestrial navigational 
systems at an airport. So you could be flying, and if you have 
an emergency, just as you alluded to, you could create an 
approach to go into an airport to fly into it that would not 
have any other navigational devices to it.
    So, if you could expand upon that, that would be very 
helpful. And also talk about the minimums that you could bring 
this aircraft down to if you needed to.
    Mr. Fuller. Getting into dangerous ground, because I can 
talk about flying all afternoon.
    The interesting thing is that--and they will speak for 
themselves, but I think this is a topic on which we are in 
absolute agreement throughout the aviation community. The 
general aviation community has equipped with GPS avionics for 
years. The commercial aircraft industry has equipped with this 
technology for years, and is equipping more with the prospect 
of the NextGen technology being more fully utilized. All of it 
gives the ability, whether I am in the two-seater Aviat Husky 
or the Citation jet, or these gentlemen flying a commercial 
airline, that we have the technology to take us from the 
altitude--our en route altitude down to a couple of hundred 
feet above the center line of the runway using nothing but the 
satellite-based technology above the earth, and the GPS box and 
the related computers in the aircraft.
    Furthermore, it allows them to know where I am at and me to 
know where they are at, so it provides separation of aircraft. 
That is going to be an increasingly important feature with this 
technology. It makes it possible to do this whether you are 
flying to your destination airport that you go to all the time, 
or you have an emergency and you have to suddenly find a 
suitable runway nearby.
    So, as I said, this basic principle of being able to define 
precisely where you are in space continuously over time 
provides all kinds of enhancements.
    Mr. Chairman, I also have a sailboat, and, believe it or 
not, it also helps us. In case the anchor is slipping, an alarm 
goes off because it shows the boat is moving. So there are all 
kinds of possibilities.
    Mr. Cravaack. Thank you. And Captain Cassidy, as a pilot, 
can you tell me in regards to NextGen and what--some of the 
interference--what is your nightmare scenario? What do you see 
that the effects of you flying your commercial aircraft with 
LightSquared that could affect you, as a pilot, navigating down 
that gulf there?
    Captain Cassidy. Well, I suppose the nightmare scenario 
would be that I anticipated that I was putting myself back up 
in Juneau, flying down the Gastineau Channel, that I had a very 
highly reliable, highly effective navigation system, and 
suddenly somebody flipped the switch on it and then I had to go 
back to the old procedures. It would make me much more 
concerned about the safe conduct of flight, because now I would 
be--have a lot less of ability to have a very good estimate at 
what my arrival fuel would need to be at my missed approach 
point in order to get to my divert.
    And that kind of tails on to what Mr. Fuller just said. I 
think that one of the big safety aspects of GPS technology is 
it allows you to be more proactive and anticipate contingency 
situations further down the road. In this case, I would--based 
upon what the arrival weather would be, I would estimate what a 
safe arrival fuel would be that would allow me then to divert 
and go to an alternate, and also have the coordinates of that 
alternate, and also, on top of that, have the approaches built 
into that alternate in my flight management system so it is all 
there and I have a one-stop-shop. And that is an incredible 
safety benefit that is clearly purely the benefit of satellite-
based navigation.
    Mr. Cravaack. Thank you, Captain. Mr. Chairman, can I have 
indulgence, just a little more time? Thank you.
    Mr. Foley, in regards to LightSquared, obviously they are 
trying to get in the lower end of the spectrum. That is their 
initial business plan. They are going to try to get into--I see 
them trying to start working into the higher end of the 
spectrum, as well.
    Is their current proposal any different than past proposal? 
And if they do try to get into the higher spectrum, what does 
that mean to you, as your business model?
    Mr. Foley. Well, let me say I think the LightSquared 
proposals have changed numerous times over the past year or so. 
But primarily, operating on that upper 10 MHz frequency closest 
to GPS, all of the testing that has been done so far, all of 
the analysis has shown that would be just catastrophic. You 
will have widespread outages of GPS. The majority of the 
receivers that we tested just did not work at those types of 
power levels that close.
    Moving to the lower 10 helps somewhat, but all of the 
analysis we have done so far says that doesn't get a clean bill 
of health, either. There are still significant problems with 
that proposal, as well, you know, specifically, the terrain 
awareness and warning systems. We talked about ADSB operations 
at low altitude. It poses a lot of problems for aviation.
    Mr. Cravaack. Thank you, sir. And with that, I will yield 
back. Thanks for your chair's indulgence.
    Mr. Petri. Thank you, gentlemen. Thank you all for the 
effort that went into your prepared testimony, and for your 
being here, and your enlightening testimony today.
    And this hearing is adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
